                  National Science Foundation • Office of Inspector General
                 4201 Wilson Boulevard, Suite I-1135, Arlington, Virginia 22230


MEMORANDUM


DATE:                 July 13, 2012

TO:                   Dr. Cora B. Marrett
                      Deputy Director, National Science Foundation

FROM:                 Dr. Brett M. Baker /s/
                      Assistant Inspector General for Audit

SUBJECT:              Closure of the Audit of NSF Controls for Ensuring that Climate
                      Change Education Program Funds are Not Used Improperly for
                      Advocacy

In a February 17, 2012, letter to the NSF Inspector General, Senator Michael Enzi
expressed concern that NSF grants under the Climate Change Education Partnership
program (CCEP), and possibly other programs, may have been improperly used for
public policy advocacy. His letter requested that the OIG audit CCEP grants for
compliance with “the advocacy limitations” and provide recommendations to improve
compliance with NSF grant requirements.

In response to Senator Enzi’s request, we began an audit to evaluate the sufficiency of
NSF’s controls throughout the grant making process for ensuring that funds are not used
for advocacy in the CCEP program. We attempted to identify any criteria that prohibit
advocacy in the CCEP program. We found that while there are government-wide
requirements prohibiting the use of federal funds for lobbying, there are no such
restrictions pertaining to the use of federal funds for public policy advocacy that falls
short of affirmative efforts aimed at influencing legislation. Further, as discussed below,
NSF does not have any Foundation-wide restrictions pertaining to public policy
advocacy. While CCEP program officials added language to CCEP solicitations intended
to address the issue of advocacy, the language they used is vague. Due to the lack of
policy, guidance and criteria on this issue, we closed our audit.

The only references to advocacy we found were in each of the CCEP program’s two
solicitations. One of the Frequently Asked Questions (FAQs) for the CCEP phase I
solicitation inquired, “What does NSF mean by the term “Education” in this solicitation?”
The response stated, “The emphasis for CCEP projects is on achieving climate literacy,

                                              1
which will allow individuals and communities to make informed decisions about climate
change. Projects must not delve into advocacy for particular responses, but present
evidence so an informed decision can be made.” (emphasis added) A more direct
statement regarding advocacy was included on the first page of the phase II solicitation.
It stated, "NSF cautions proposers that projects may only present scientific evidence
about climate system processes, climate change and climate change impacts so that
learners can make informed decisions, without advocating for particular responses to this
information. Proposals that prescribe a specific policy position will be returned without
review.” (emphasis added)

These statements on advocacy are vague and require clarification. It is not clear what is
meant by “prescrib[ing] a specific policy position” or “delv[ing] into advocacy” and no
examples are given. In addition, it is not clear how one would know the difference
between delving into advocacy for a particular response and presenting evidence so that
an informed decision can be made. Statements, such as these, that lack clarity make it
difficult for proposers to appropriately respond, for merit reviewers to accurately
evaluate, and for NSF to properly enforce them. Such vagueness also impairs our office’s
ability to audit compliance.

To gain a better understanding of the language in the two solicitations, we interviewed
CCEP program staff and management, a senior official who reviewed the CCEP phase II
solicitation, and NSF policy officials, all of whom emphasized to us that NSF does not
fund activities that prescribe or promote a specific position. Each stated that NSF’s
position is well known and understood in the scientific community, even though there is
no formal policy to this effect. As such, CCEP program staff informed us that they
debated the necessity of including this language in the solicitations. A senior official,
who reviews program solicitations for the Office of the Director, found the advocacy
language to be odd and unnecessary. However, program staff, a NSF senior official, and
policy officials all ultimately deferred to the CCEP program management’s view that a
statement was needed to reassure certain members of Congress that NSF would not fund
CCEP proposals that promoted a position.

As noted, however, the language that was built into the solicitations is far from clear.
The Office of General Counsel did not review or approve this language. During our audit,
representatives from both the NSF policy office and the Office of General Counsel
expressed uncertainty over what was meant by the term “advocacy.” In response to our
questions about advocacy limitations, policy officials asked us if there was a standard
Federal-wide definition for advocacy as there is with “lobbying.” They requested that if
such a definition exists that we provide it to them.

Based on our limited review of award solicitations for other NSF programs and our
interviews with NSF staff and program officials, the language relating to prescribing a
specific policy position and delving into advocacy is unique to the CCEP program. Given
the uncertainty as to what is meant by this language, if NSF decides to retain it in award
solicitations, it should clearly articulate what is meant by “prescribing a specific policy
position,” and “delving into advocacy.” NSF should also provide examples of the types


                                             2
of activities it considers inappropriate and embed related controls throughout the award
lifecycle to enforce the limitation.

If NSF decides to retain this language, we further suggest that NSF clarify if it is taking
an official position on not reviewing proposals that prescribe a specific policy position
and/or delve into advocacy in all programs or just some. If NSF’s intent is to prohibit
such activity in all its programs, it should clearly and formally articulate that position. If,
instead, the agency decides to include the language in only certain programs, then it
should explain the basis for that decision. In either case, the agency’s decision should be
clearly communicated to both internal and external stakeholders.

We appreciate the courtesies and assistance provided by so many NSF staff during the
audit. If you have any questions, please contact Marie Maguire, Senior Audit Manager,
at (703) 292-5009.

cc:     Allison Lerner
        G. P. Peterson                                  Marie Maguire
        Michael Van Woert                               Kelly Stefanko
        Martha Rubenstein                               Emily Franko
        Clifford Gabriel                                Karen Scott
        John C. Wingfield
        Joan Ferrini-Mundy
        Kelly Kenison Falkner
        Lawrence Rudolph




                                               3
